Department of Homeland Security
   Ofﬁce of Inspector General

     Immigration and Customs Enforcement 

Information Technology Management Progresses 

             But Challenges Remain 





OIG-10-90                              May 2010
                                                             Office of Inspector General

                                                             U.S. Department of Homeland Security
                                                             Washington, DC 20528




                                      May 28, 2010


                                          Preface

The Department of Homeland Security (DHS) Office of Inspector General (OIG) was
established by the Homeland Security Act of 2002 (Public Law 107-296) by amendment
to the Inspector General Act of 1978. This is one of a series of audit, inspection, and
special reports prepared as part of our oversight responsibilities to promote economy,
efficiency, and effectiveness within the department.

This report addresses the strengths and weaknesses of Immigration and Customs
Enforcement information technology management. It is based on interviews with
employees and officials of relevant agencies and institutions, direct observations, and a
review of applicable documents.

The recommendations herein have been developed to the best knowledge available to our
office, and have been discussed in draft with those responsible for implementation. We
trust this report will result in more effective, efficient, and economical operations. We
express our appreciation to all of those who contributed to the preparation of this report.




                                      Richard L. Skinner 

                                      Inspector General 

Table of Contents/Abbreviations
 


Executive Summary ................................................................................................................... 1 

Background ................................................................................................................................ 2 

Results of Audit ......................................................................................................................... 5 

    IT Strategic Planning and Budgeting Processes Need Improvement ................................... 5 

    IT Investment Management Processes Need Improvement................................................ 11 

    The OCIO Is Challenged to Achieve Effective Management of Agency-wide IT............. 17 

Recommendations.................................................................................................................... 24
Management Comments and OIG Analysis……………………………...………………......24


Appendixes
    Appendix A:                 Objective, Scope and Methodology...................................................... 26
    Appendix B:                 Management Response to Draft Report................................................ 28
    Appendix C:                 Major Contributors to the Report.......................................................... 30
    Appendix D:                 Report Distribution ............................................................................... 31

Abbreviations
     AD                      Acquisition Directive
     CIO                     Chief Information Officer
     DHS                     Department of Homeland Security
     FY                      Fiscal Year
     GAO                     Government Accountability Office
     ICE                     Immigration and Customs Enforcement
     IT                      Information Technology
     ITSR                    Information Technology Service Request
     MD                      Management Directive
     OCIO                    Office of the Chief Information Officer
     OIG                     Office of Inspector General
     PEO                     Program Executive Office
     SELC                    Systems Engineering Life Cycle
     SLA                     Service Level Agreement

Figures
    Figure 1:          ICE Organizational Structure ...........................................................................3 

    Figure 2:          ICE OCIO Organizational Structure ................................................................3 

    Figure 3:          OCIO Strategic Plan Goals ..............................................................................6 

    Figure 4:          IT Strategic Plan Goals.....................................................................................7 

                           Immigration and Customs Enforcement Information Technology 

                                 Management Progresses But Challenges Remain 

Table of Contents/Abbreviations
 


 Figure 5:  Total ICE IT Spending, FY 2009 .....................................................................9 

 Figure 6:  Comparison of DHS MD 1400 and DHS AD 102-01 IT Investment 

            Levels.............................................................................................................12 

 Figure 7:  Proposed ICE OCIO Investment Management Structure...............................13 

 Figure 8:  High-Level ICE Life Cycle Management Process .........................................15 

 Figure 9: IT Service Requests Since 2007.....................................................................19 

 Figure 10: Total FY 2009 OCIO Funding by Fund Source .............................................21 





                      Immigration and Customs Enforcement Information Technology 

                            Management Progresses But Challenges Remain 

OIG 

Department of Homeland Security
Office of Inspector General


Executive Summary
                 We audited Immigration and Customs Enforcement’s information
                 technology management functions. Our objective was to determine
                 whether the components information technology management
                 approach adequately addresses strategic planning, implementation,
                 and management of technology to support its immigration and
                 customs enforcement goals.

                 Immigration and Customs Enforcement has improved its strategic
                 planning by implementing an Office of the Chief Information
                 Officer organizational strategic plan. However, it has not yet
                 finalized its information technology strategic plan to define key
                 goals and objectives for fulfilling its mission responsibilities.
                 Further, although the Office of the Chief Information Officer has
                 oversight of information technology spending, its budget planning
                 process did not capture all component information technology
                 needs.

                 The Office of the Chief Information Officer is refining its
                 information technology investment management and governance
                 approach to improve oversight capabilities. The Office of the Chief
                 Information Officer has also instituted a process for information
                 technology life cycle management to oversee technology projects.
                 However, extensive documentation preparation and review for
                 information technology projects of all sizes, combined with a need
                 for system life cycle management training, may hinder efficient
                 management of information technology projects. Further, the Office
                 of the Chief Information Officer is challenged to deliver effective
                 information technology services and support due to conflicting
                 priorities and staffing shortages. The Office of the Chief
                 Information Officer is also unable to provide customers with details
                 on program funds, and has not finalized information technology
                 policies necessary for effective management of information
                 technology activities.




              Immigration and Customs Enforcement Information Technology 

                    Management Progresses But Challenges Remain 


                                        Page 1
Background

                Immigration and Customs Enforcement (ICE) is the largest
                investigative arm of the Department of Homeland Security (DHS).
                ICE’s mission is to “protect the security of the American people
                and homeland by vigilantly enforcing the Nation’s immigration
                and customs laws.” To accomplish this mission, ICE deters,
                interdicts, and investigates threats; combats cross-border and
                financial crime; and protects federal government facilities.

                ICE has more than 400 offices and 20,000 employees in the United
                States and around the world. For fiscal year (FY) 2009, ICE had a
                budget of approximately $5.9 billion. This represents roughly 11%
                of DHS’ overall FY 2009 budget of $52 billion.

                ICE has two primary organizational units, the Office of the Deputy
                Assistant Secretary for Operations and the Office of the Deputy
                Assistant Secretary for Management. The Office of the Deputy
                Assistant Secretary for Operations provides leadership and
                coordination between the operational components to achieve
                agency goals. The Office of the Deputy Assistant Secretary for
                Management is responsible for coordination of the administrative
                and managerial components, as well as providing an integrated
                information technology (IT) infrastructure. These components,
                pictured in figure 1, are responsible for executing ICE’s mission.




                Figure 1: ICE Organizational Structure

             Immigration and Customs Enforcement Information Technology 

                   Management Progresses But Challenges Remain 


                                       Page 2
   Under the Deputy Assistant Secretary for Management, the Office
   of the Chief Information Officer (OCIO) provides information
   technology (IT) services and solutions in support of the ICE
   mission. Since 2005, the OCIO has improved its organizational
   and operational effectiveness by restructuring itself to align with
   the overall ICE mission, current operational priorities, core
   business processes, and emerging IT needs. The OCIO is
   composed of 10 divisions and offices, staffed with approximately
   380 federal employees, that work together to achieve the ICE
   mission. Figure 2 shows the organizational structure of the OCIO.




   Figure 2: ICE OCIO Organizational Structure

   Leveraging investigative techniques and IT resources are key
   factors in ICE’s approach to accomplishing its mission.
   Technology plays a vital role for ICE, as evidenced by its FY 2009
   IT expenditures of approximately $600 million. According to the
   ICE Strategic Plan FY 2009–2013, ICE’s IT infrastructure needs to
   be modernized to help produce and share information that is
   accurate, secure, relevant, and timely. Accordingly, the OCIO has
   developed a number of critical IT initiatives to modernize IT
   systems and provide IT solutions to enable ICE personnel to meet
   their mission. For example, the Atlas program is an IT
   modernization and automation initiative that serves as the principal
   program to enhance ICE’s technology foundation. The program
   acquires and integrates commercial-off-the-shelf hardware and
   software products into the ICE IT infrastructure to enhance core
   business functions. With this program, the OCIO aims to create,
   sustain, secure, and manage an IT environment to support the ICE
   law enforcement mission. ICE considers this program a key step
   toward improving internal information sharing.



Immigration and Customs Enforcement Information Technology 

      Management Progresses But Challenges Remain 


                          Page 3
                         Over the past several years, a number of audit reports have
                         identified key IT challenges at ICE. In September 2005, the
                         Government Accountability Office (GAO) reported that ICE’s
                         Atlas program had inadequate cost justification as well as
                         insufficient program management practices, performance
                         measurements, and expenditure plan.1 In July 2006, GAO reported
                         that ICE’s Atlas project plans did not include essential elements,
                         such as a work breakdown structure of tasks, identification of
                         project costs, analysis of constraints and risks, and review and
                         approval by management and stakeholders.2 Finally, in April
                         2007, GAO reported that ICE had not implemented key system
                         management practices that were needed to ensure that major
                         programs, such as the Atlas program, would deliver IT
                         infrastructure capabilities and benefits on time and within budget.3

                         In September 2008, we reported that although ICE was in the
                         process of improving its IT management functions and operations,
                         mature IT strategic planning and governance capabilities were
                         needed.4




1
  Management Improvements Needed on Immigration and Customs Enforcement’s Infrastructure
 

Modernization Program, GAO-05-805, September 2005. 

2
  Immigration and Customs Enforcement Is Beginning to Address Infrastructure Modernization Program 

Weaknesses but Key Improvements Still Needed, GAO-06-823, July 2006. 

3
  Immigration and Customs Enforcement Needs to Fully Address Significant Infrastructure Modernization 

Program Management Weaknesses, GAO-07-565, April 2007. 

4
  Progress Made in Strengthening DHS Information Technology Management, But Challenges Remain, 

OIG-08-91, September 2008. 

                     Immigration and Customs Enforcement Information Technology 

                           Management Progresses But Challenges Remain 


                                                Page 4
Results of Audit
        IT Strategic Planning and Budgeting Processes Need 

        Improvement
 


                         ICE needs to improve its IT strategic planning and budget process.
                         Although it has completed an OCIO organizational strategic plan
                         and established an approach to measure workforce, business, and
                         process effectiveness against that plan, these efforts do not address
                         agency-wide IT-specific goals. Further, the OCIO developed a
                         separate draft IT strategic plan that defines key goals and
                         objectives for fulfilling ICE’s mission responsibilities, but the
                         completion of that plan is on hold until ICE updates its overall
                         strategic plan. As a result, the OCIO cannot ensure that its IT
                         initiatives are contributing fully to ICE mission goals.

                         The OCIO has taken steps to improve planning for all ICE
                         programs by establishing an OCIO IT budget process. The OCIO
                         reviewed and approved component IT spending throughout the
                         year. However, the budget planning process did not fully represent
                         what ICE spent on IT in FY 2009. As a result, the OCIO has
                         limited ability to proactively manage and administer all IT
                         resources and assets.

        OCIO Strategic Planning

                         The Government Performance and Results Act of 1993 holds
                         federal agencies responsible for strategic planning to ensure
                         efficient and effective operations and use of resources to achieve
                         mission results.5 Further, DHS Management Directive (MD)
                         0007.1 requires agency Chief Information Officers (CIOs) to
                         develop and implement an IT Strategic Plan.6 The plan should
                         clearly define how IT supports an agency’s mission and drives
                         investment decisions, guiding the agency toward its goals and
                         priorities.

                         In 2009, the OCIO completed and implemented its first strategic
                         plan—OCIO Strategic Plan FY2009–FY2012. The OCIO
                         developed the plan to align with the operational goal in the ICE

5
 Public Law 103-62, August 3, 1993. 

6
 Department of Homeland Security, Management Directive 0007.1, Information Technology Integration
 

and Management, March 15, 2007. 

                     Immigration and Customs Enforcement Information Technology 

                           Management Progresses But Challenges Remain 


                                               Page 5
   Strategic Plan FY2009–FY2013 to optimize the effectiveness of
   the workforce, business processes, and technology. According to
   the OCIO, this alignment will ensure that the OCIO Strategic Plan
   supports the agency’s operational need for technology and
   provides direction for the OCIO’s specific organization needs.

   The OCIO Strategic Plan contains five goals, and corresponding
   objectives, aimed at developing and improving the OCIO
   organization. These goals, presented in figure 3, address
   communication, financial management, strategic management,
   workforce development, and organizational growth.




   Figure 3: OCIO Strategic Plan Goals

   The OCIO has established performance targets to ensure that it
   achieves its strategic goals throughout the year. These targets
   provide specific tasks for each OCIO division to achieve. For
   example, one division was tasked to “establish a Process
   Improvement Strategy and Governance Framework by September
   30, 2009.” Senior leadership tracks each division’s progress in
   achieving the targets through annual performance plans and a
   performance status dashboard. As of September 30, 2009, the
   OCIO had achieved a “green” status for 86% of its objectives.
   Efforts are under way to draft new goals and objectives for FY
   2010. According to OCIO management, these goals are being
   established collaboratively across the OCIO and will improve
   formal alignment with the DHS CIO goals.


Immigration and Customs Enforcement Information Technology 

      Management Progresses But Challenges Remain 


                          Page 6
   The OCIO has drafted the ICE IT Strategic Plan FY 2009–FY 2013
   but has not yet finalized and implemented this plan. The plan has
   not been finalized because the ICE Strategic Plan, from which the
   IT plan should be derived, is being updated. At the completion of
   our fieldwork, the OCIO was waiting to receive the final ICE
   Strategic Plan before finalizing its IT plan. Although still in draft,
   the plan defines the ICE IT mission as providing “first class IT
   products and services to ensure ICE is able to effectively and
   efficiently accomplish its mission.” The plan presents a
   framework for ICE to optimize the use of IT in support of DHS
   and ICE goals, objectives, and priorities. The IT Strategic Plan
   identifies four goals, as shown in figure 4.

            Goal 1                    Goal 2                   Goal 3                    Goal 4
      Optimize Information    Enhance Management           Integrate Security     Harmonize Business
            Sharing                Oversight                  and Privacy                & IT

    Develop an environment Establish an efficient,         Optimize security       Establish/enhance IT
    that fosters information effective, and integrated   and privacy programs.    relationships between
      sharing with all ICE      ICE IT Governance                                  IT providers and ICE
          stakeholders.           Framework that                                    Program Offices to
                               promotes risk-based                                  anticipate business
                               decision-making and                                needs in order to plan
                                   accountability.                                for, acquire, and apply
                                                                                 cutting-edge technology
                                                                                         solutions.



   Figure 4: IT Strategic Plan Goals

   The OCIO has developed specific objectives under each strategic
   goal. The goals and objectives will provide ICE managers and
   staff with the necessary direction for developing tactical and
   operational plans to meet ICE mission requirements. The OCIO
   expects that the IT strategic plan will enable ICE to fulfill its
   mission responsibilities and the OCIO to move forward in a
   defined strategic direction.

   Without an overarching IT strategic plan and the tactical and
   operational plans that should flow from it, the OCIO cannot ensure
   that its IT projects, initiatives, and investments are contributing to
   ICE mission goals. Officials in ICE component offices told us that
   they are not clear on the direction the OCIO is taking to better
   serve mission operations. In addition, IT project managers said
   that they are not aware of an agency-wide IT vision that drives
   day-to-day work. Rather, work is prioritized on the basis of
   customer-driven requests and available funding. For example, ICE
   acquisitions officials said that procurements are often handled in
   the order they are received rather than by mission priorities.


Immigration and Customs Enforcement Information Technology 

      Management Progresses But Challenges Remain 


                                 Page 7
        IT Budget Process

                         The Clinger-Cohen Act requires that CIOs review the IT budget
                         within their agency to effectively manage technology systems and
                         initiatives as strategic investments.7 Further, DHS MD 0007.1
                         requires component CIOs to effectively manage and administer all
                         IT resources and assets and prepare an IT budget for all component
                         office IT activities.8

                         The OCIO has taken steps to improve budget planning for ICE IT
                         programs. Specifically, the OCIO has established a budget process
                         to identify and prioritize IT needs and implement a consolidated
                         budget execution plan for IT resources supporting ICE’s mission
                         and goals. However, the FY 2009 IT budget plan did not capture
                         all funds ICE component offices spent on technology. Although
                         the OCIO has oversight of component office IT spending, it does
                         not review and approve component IT plans at an earlier stage
                         within the process. As a result, the OCIO is not able to guide IT
                         purchases to promote standardization or strategic direction of
                         agency technology.

                         IT Budget Process Established
                         The OCIO is responsible for estimating all funding needed for
                         agency IT capabilities. To accomplish this, the OCIO has
                         established a process to develop an annual IT budget plan. It
                         begins this process by estimating the total expenses for all OCIO
                         divisions using the prior year budget as a baseline. Building on
                         this baseline, each division develops an updated budget plan that
                         reflects its needs. The OCIO Budget Execution Office validates
                         the divisional estimates and consolidates the plans into the OCIO
                         budget execution plan.

                         The OCIO works with the ICE Budget Office and ICE components
                         to identify the funding needed for agency-wide IT initiatives,
                         equipment and services for the year. ICE component funding
                         requests for major programs are captured in the annual IT service
                         assessment process. During the budget process, the OCIO also
                         considers plans for new IT initiatives from the annual Office of
                         Management and Budget’s Exhibit 300 business case summaries
                         and new IT projects identified by ICE governance boards.


7
 Public Law 104-106, February 10, 1996. 

8
 Department of Homeland Security, Management Directive 0007.1, Information Technology Integration
 

and Management, March 15, 2007. 

                     Immigration and Customs Enforcement Information Technology 

                           Management Progresses But Challenges Remain 


                                               Page 8
   The OCIO compiles a budget execution plan that details the
   funding that can be spent on specific programs and projects for the
   year. The OCIO and the ICE Budget Office review and prioritize
   these requests to ensure alignment with agency goals. According
   to the OCIO, this collaboration between the OCIO and the ICE
   Budget Office ensures that all IT needs are captured in the OCIO
   annual budget process.

   IT Spending Outside of Budget Process
   Although the OCIO FY 2009 budget accounted for all OCIO-
   managed funds, it did not account for all ICE IT funds spent during
   the year. In FY 2009, the OCIO was able to account for 87% of
   the IT funds through its consolidated budget formulation process,
   as shown in figure 5.




   Figure 5: Total ICE IT Spending, FY 2009

   The OCIO has established formal processes to monitor component
   spending on IT equipment and services. According to the OCIO,
   regardless of who funds the requisition, IT equipment purchases
   are made through a standard IT Service Request (ITSR) process.
   In this process, ICE component offices submit requests for IT
   purchases to the OCIO for approval by the CIO.

   Acquisitions for IT services are also subject to formal OCIO
   oversight. The OCIO has instituted an acquisition review process
   to ensure IT acquisitions are reviewed before they are completed.
   This process provides a standard mechanism for ICE to initiate
Immigration and Customs Enforcement Information Technology 

      Management Progresses But Challenges Remain 


                          Page 9
   investment reviews to ensure compliance with the DHS-level
   acquisitions guidance and review process. According to the OCIO,
   the review process also helps to ensure alignment of investments
   with ICE and DHS strategic goals.

   Although the OCIO maintains awareness of IT spending through
   the ITSR and acquisition review processes, these processes do not
   provide an opportunity for the OCIO to conduct a complete review
   of component office IT plans prior to spending. As a result, the
   OCIO has limited ability to effectively manage and administer all
   IT resources and assets with a complete and accurate budget.
   Consequently, the ability of OCIO to consolidate purchases,
   promote IT standardization, and achieve tighter control of IT
   expenditures is hindered.




Immigration and Customs Enforcement Information Technology 

      Management Progresses But Challenges Remain 


                          Page 10
        IT Investment Management Processes Need Improvement
                        The OCIO is refining its IT investment management approach in
                        response to recent changes in DHS acquisitions requirements.
                        Specifically, the OCIO is instituting new IT governance boards and
                        has developed a formal governance process. The OCIO expects
                        the new governance process to provide a more formal structure for
                        IT investment review and to increase oversight for OCIO-managed
                        programs.

                        OCIO’s system life cycle management process plays a key role in
                        ensuring that ICE IT projects receive the appropriate level of
                        review and oversight. Although the OCIO has established a
                        system life cycle management process to oversee all ICE
                        technology projects, IT managers are challenged to achieve
                        efficient oversight because of the number of documents required
                        for IT projects of all sizes. Further, ICE components do not know
                        how to apply the process to their projects, in part because of a lack
                        of training. As a result, IT projects may incur increased costs.

        IT Investment Management Approach Refined

                        According to federal guidance, the CIO is required to implement
                        IT governance structures and to ensure effective acquisition of IT
                        resources.9 Additionally, according to DHS MD 0007.1, the
                        component CIO is responsible for the effective management and
                        administration of all IT resources and assets by reviewing and
                        approving IT acquisitions in accordance with DHS policies and
                        guidance.

                        In November 2008, DHS issued Acquisition Directive (AD) 102­
                        01.10 The directive defines the acquisitions process that must be
                        followed for IT projects to receive funding. This directive
                        establishes three investment levels and defines department and
                        component review and approval authority for each level. Figure 6
                        shows these thresholds and responsibilities.




9
 The Clinger-Cohen Act of 1996; OMB Circular A-130, Management of Federal Information Resources; 

and OMB Circular A-11, Planning, Budgeting, Acquisition and Management of Capital Assets provide 

regulations and guidance for investment review and capital planning activities. 

10
   DHS AD 102-01, Version 1.9, Acquisition Directive, 7 Nov. 2008. 

                     Immigration and Customs Enforcement Information Technology 

                           Management Progresses But Challenges Remain 


                                               Page 11
                                           Previous Requirements
                                                                               DHS AD 102-01
                                               (DHS MD 1400)11
                              Project     Investment                      Investment
                               Level      Threshold       Review/         Threshold         Overseen
                                        (total life cycle Approval      (total life cycle     by
                                             costs)                          costs)
                              Level 1      > $200M           DHS             � $1B            DHS
                              Level 2       $20M –           DHS         $300M – $1B          DHS
                                            $200M
                              Level 3    $5M – $20M          DHS           < $300M            ICE

                           Figure 6: Comparison of DHS MD 1400 and DHS AD 102-01 IT Investment
                           Levels

                           The new departmental acquisitions guidance has increased the
                           number of IT projects that require ICE-level review and approval.
                           Previously, DHS held review and approval authority for all IT
                           investments with total life cycle costs of greater than $5 million.
                           However, under AD 102-01, DHS now reviews IT investments
                           with life cycle costs of $300 million or more, with ICE responsible
                           for reviewing and approving all IT investments of less than $300
                           million.

                           To address the requirements of AD 102-01, the OCIO is updating
                           its governance structure. It is instituting two new OCIO-level IT
                           governance boards: the Cross-Impact Review Board and the
                           Executive Board. These boards will provide a more formal
                           structure to ensure acquisition oversight of ICE investments
                           throughout their life cycle. These boards will meet weekly or
                           monthly to review program and project accomplishments and plans
                           during the acquisition process. Figure 7 shows the proposed
                           governance structure with investment review responsibilities.




11
     Department of Homeland Security, Management Directive 1400, Investment Review Process.
                       Immigration and Customs Enforcement Information Technology 

                             Management Progresses But Challenges Remain 


                                                 Page 12
    Figure 7: Proposed ICE OCIO Investment Management Structure

    The Cross-Impact Review Board is responsible for facilitating
    analyses, providing guidance, and making recommendations for
    acquisitions to the Executive Board. The Cross-Impact Review
    Board, made up of management-level subject matter experts
    representing ICE/OCIO’s core functions, will support and report to
    the Executive Board.

    The Executive Board is the decision-making body that is
    responsible for reviewing and approving Cross-Impact Review
    Board recommendations. The Executive Board is made up of
    ICE/OCIO division directors and will support and report to the
    existing ICE Portfolio Working Group.

    To provide an overarching structure for the new boards, the OCIO
    developed a formal governance process in 2009. The new process
    describes each governance board and illustrates the interactions
    between OCIO-level and ICE-level boards. The process also
    defines three governance sub-processes: acquisition management,
    management reviews, and process asset management. The OCIO
    expects the new governance process to provide a more formal
    review structure for IT investments and to increase oversight for
    programs.

    In February 2009, the new boards began a piloting phase to test
    investment management processes with a select number of IT
    projects. For example, the Traveler Enforcement Communication
    System modernization program, an effort to modernize the system
Immigration and Customs Enforcement Information Technology 

      Management Progresses But Challenges Remain 


                          Page 13
    that screens travelers entering the United States, went through all
    levels of review with the two new OCIO-level boards. The boards
    tracked all comment forms, meeting minutes, and action items so
    that the decisions they made could be clearly communicated to the
    programs. According to the OCIO, the pilot phase provided a
    complete picture of the end-to-end governance process. At the
    conclusion of our review, the OCIO was updating each governance
    board’s charter based on lessons learned from the pilots. The
    OCIO expected to implement the new boards in February or March
    2010 after governance charters were finalized.

    Although the OCIO is documenting and communicating guidance
    on its new investment review process, challenges remain for
    successful implementation of the process. According to several
    ICE officials, project managers are not consistently aware of the
    OCIO review boards and have limited understanding of the
    decision-making process. Further, many project managers do not
    clearly understand what is required for the new acquisition
    process. For example, most project managers said they do not
    always understand when or how to enter the formal review process
    or what documentation is required.

   Systems Life Cycle Management Process Established
   An essential part of AD 102-01 is the DHS Systems Engineering
   Life Cycle (SELC) set forth in appendix B of the directive. The
   purpose of the DHS SELC Guide is to standardize the system life
   cycle process across DHS. The guide is designed to ensure that
   appropriate activities are planned and implemented in each phase
   of the life cycle to increase a project’s success.

   The OCIO has recently aligned its system life cycle management
   process with the DHS SELC. ICE established the process to
   oversee the various technical, security, and quality aspects of its
   technology projects and to manage the integration of technology
   into ICE. The life cycle management process consists mainly of a
   set of nine activities, documents, technology artifacts, and gate
   reviews that can be customized to fit the unique needs of a project.
   Figure 8 depicts the nine activities, also referred to as phases.




Immigration and Customs Enforcement Information Technology 

      Management Progresses But Challenges Remain 


                          Page 14
                             Syste
                               stem Lif
                                    Life
                                       eCCy
                                          ycle Mana
                                               Managem
                                                   geme
                                                      ent Proces
                                                          Process
                                                                s Ph
                                                                  Phases
                                                                    ases


    Solution                  Requirements                          Integration                  Operations
                  Planning                   Design   Development                 Implementation & Maintenance Disposition
    Engineering               Definition                            and Test




   Figure 8: High-Level ICE Life Cycle Management Process

   During the process, the project team completes the required
   activities. The results of the activities are recorded in documents
   and technology artifacts such as code. The documents and
   technology artifacts are assessed for adherence to ICE standards
   and guidelines and evaluated in gate reviews to determine how the
   project should proceed.

   Documentation Requirements for IT Projects
   Although the life cycle management process is accepted as the
   agency’s standard approach, IT and component personnel said that
   the volume of documents required for small projects is excessive,
   increasing the workload for administering IT projects.
   Specifically, IT project managers said the same documentation is
   required for all IT projects reviewed by either DHS or ICE. The
   ICE IT life cycle handbook specifies that a range of up to 60
   documents may be required throughout the project, depending on
   the project’s scope and complexity. OCIO project managers are
   concerned about the potential impact on cost and schedule for
   current IT projects. One IT project manager explained that a small
   IT project may incur a significant cost increase in order to
   complete required documentation. As a result, the OCIO is
   challenged to deliver IT solutions in a cost-effective or timely
   manner.

   Although the life cycle management process can be tailored based
   on a project’s size, scope, and risks, project managers said that the
   amount of documentation required remains burdensome across all
   project levels. To address these concerns, the OCIO has
   implemented a new Program Executive Office (PEO) to help
   program and project managers navigate system life cycle processes
   more efficiently. One of the initial efforts by the PEO was to
   simplify the IT life cycle process. The PEO offers assistance to the
   project manager to develop a Project Tailoring Plan in the first
   phase of the process. This plan documents the overall
   development approach for the program or project. However, IT
   managers said that an appropriate level of review activities and


Immigration and Customs Enforcement Information Technology 

      Management Progresses But Challenges Remain 


                                     Page 15
    required documentation is not yet effectively tailored to the project
    investment size.

   Clarity Needed for System Life Cycle Management Process
   The process described within the ICE System Life Cycle
   Management Handbook applies to all ICE technology projects,
   including operational systems, infrastructure, and field technology
   initiatives, regardless of sponsor, developer, project size,
   methodology, or technology used. Thus, all ICE personnel and IT
   project teams must adhere to the ICE life cycle management
   process when developing or modifying ICE technology. However,
   ICE component office personnel said that they do not know how to
   apply the process to their IT projects. For example, when the
   Federal Protective Service began a project to automate existing
   manual processes, personnel did not know what documents were
   required during the initial phases of the project. Further, the IT
   project faced challenges when OCIO guidance did not clearly
   specify what was required from the ICE component personnel and
   contractors supporting the project team. This situation was
   compounded when requirements for documentation and gate
   reviews changed during the process due to a change in the
   project’s investment level categorization.

   Additionally, ICE customers working on an investment in excess
   of $50 million said they did not clearly understand how to prepare
   for required reviews throughout the process. Specifically, the
   project team did not know what documentation was required or
   how to plan the appropriate timeframes for each review. Further,
   the project team said that new documentation and review
   requirements, such as an architecture and design review, were
   introduced throughout the process.

   ICE component officials said that personnel involved in the system
   life cycle management process needed training. Although life
   cycle management tutorials and templates are offered, training is
   not required for ICE component personnel. As a result, component
   personnel often proceed without an adequate understanding of the
   process. Further, project teams are unable to plan for needed staff
   and budget to ensure that activities are completed to keep the
   project on schedule.




Immigration and Customs Enforcement Information Technology 

      Management Progresses But Challenges Remain 


                          Page 16
The OCIO Is Challenged to Achieve Effective
Management of Agency-wide IT
            Although the OCIO has developed a structure to foster
            communications with its customers, ICE component offices are
            concerned that the OCIO does not understand their needs and
            priorities. As a result, component office officials may plan their
            own IT solutions without OCIO coordination. In addition, the ICE
            component offices we spoke with said that there was little
            transparency in how the OCIO spent their program funds, resulting
            in a lack of confidence related to IT funds management. In
            addition, ICE has not yet finalized and instituted a number of
            necessary IT policies. Without such policies, the OCIO does not
            have the controls in place to govern and manage IT activities.

IT Service Delivery Needs Improvement

            According to DHS MD 0007.1, the component CIO is responsible
            for effective management and administration of all component IT
            resources and assets to meet mission, departmental, and enterprise
            program goals. The OCIO has developed an organizational
            structure to establish customer relationships while also providing
            centralized management of agency-wide IT. However, execution
            of several IT projects was hindered by insufficient understanding
            of customer needs and limited staff.

             Systems Development Division
             The OCIO established a Systems Development Division to focus
             on developing new ICE IT applications, enhancing and
             maintaining existing applications, and supporting IT program
             initiatives. Within this division, the OCIO established an account
             executive approach to foster customer relationships and ensure that
             it understands its customers’ business needs. Account executives
             serve as customer service liaisons to the program offices in ICE.
             With this effort, the OCIO aims to improve its relationship with
             ICE component offices, as well as its ability to support the full IT
             life cycle of business applications.

            At least five account executives work with ICE customers to
            understand their business needs and priorities and to vet new
            system requirements. Account executives told us that their roles
            and responsibilities include translating business requirements into

         Immigration and Customs Enforcement Information Technology 

               Management Progresses But Challenges Remain 


                                   Page 17
   technical solutions, as well as to help customers through the
   governance process. Account executives and OCIO IT project
   managers assist the customer through reviews and help to develop
   the documentation required for the process and acquisitions
   packages. IT project managers also attend project meetings with
   component office customers to foster continual engagement
   throughout the project.

   Customer Needs
   Some ICE customers said that they have not been able to obtain IT
   solutions to meet their mission operational needs. For example, the
   OCIO has restricted the use of wireless capabilities owing to the
   agency’s involvement with law enforcement data. However, non-
   law enforcement programs within ICE find these protocols too
   constricting. The OCIO has denied their requests for IT
   capabilities, such as wireless Internet or “webinars,” to collaborate
   with ICE component stakeholders. As a result, these customers do
   not believe that the OCIO understands their mission well enough to
   deliver IT solutions to support their operations.

   Time and Resources
   OCIO customers also said that there are often delays of 60 days or
   more in receiving responses to their IT requests. For example, one
   ICE component requested that a system be moved to another
   domain so it could support current IT program needs, a request the
   component felt should have been completed quickly. However,
   after the request had remained open for three months, the
   component director had to contact OCIO management to make this
   priority known. Another ICE component waited nearly a year for a
   response on a request for Microsoft SharePoint.

   ICE customers we spoke with said that when the OCIO’s response
   to their IT request is delayed beyond 60 days, it can cause
   significant setbacks to IT project efforts, as well as increased costs.
   For example, during one system development project, the customer
   needed an environment established for system testing. The OCIO
   was not able to respond in a timely manner. This resulted in
   missed deadlines for a project that was rated a top priority within
   the component office. In another case, one component had to
   spend an additional $200,000 on its project because it could not
   obtain a response from the OCIO on a connectivity request.

   Because there is no defined review period for IT requests continues
   to introduce risks to IT projects. One ICE customer said that IT
   requests often remain open for three months or longer without

Immigration and Customs Enforcement Information Technology 

      Management Progresses But Challenges Remain 


                          Page 18
   resolution from the OCIO. In these cases, risks are identified and
   documented for mitigation. For example, one IT project identified
   at least seven high-priority issues and risks to the project schedule
   resulting from potential rework to redesign applications or to select
   alternate solutions.

   OCIO customers said that the OCIO remains focused on its
   internal priorities, such as its workforce, business, and process
   effectiveness, rather than on its customers. Customers noted
   challenges in working with the OCIO because it had limited time
   and resources for customer IT projects. OCIO IT managers
   acknowledged that they are focused mainly on priorities, workload,
   and deadlines within their own division. IT staff also said that they
   are sometimes not readily available to work on customer issues
   because they are focused on division-specific activities.

   Staffing
   Staffing shortages present challenges to efficiently managing IT
   systems and development work. At the time of our audit, the
   OCIO had approximately 350 government employees and 1,860
   contract employees. Although the OCIO has doubled its staffing
   level over the last two years, the workload has tripled over the
   same period. For example, ITSRs have increased from 982 to
   3,629 from FY 2007 to FY 2009. Figure 9 shows the number of
   ITSRs for the past three years.

                                 ICE IT Service Requests

                      4000
                      3500
                      3000
      # of Requests




                      2500
                      2000
                      1500
                      1000
                      500
                        0
                             FY 2007          FY 2008          FY 2009
                                               Year

   Figure 9: IT Service Requests Since 2007




   Staff shortages are a critical issue for some OCIO divisions. For
   example, the System Development Division has only 81 federal
   employees to manage its approximately 140 system development
Immigration and Customs Enforcement Information Technology 

      Management Progresses But Challenges Remain 


                                Page 19
            projects. Although OCIO divisions augment their staff with
            contractors, only federal employees may manage IT projects. In
            some cases, there are not enough federal employees to manage the
            number of IT projects. For example, one branch is staffed with 11
            federal employees and approximately 225 contractors. Another
            System Development division branch has approximately 80
            projects, but only 20 federal employees to oversee all contractors
            and development activities.

            As a result of the staffing shortage, project managers are stretched
            thin, each managing multiple projects. Consequently, OCIO
            divisions struggle to manage their current project workload and
            meet their customers’ IT system needs. Staff shortages may also
            limit the OCIO’s ability to meet new customer requirements.
            OCIO officials said they are in the process of determining
            appropriate contractor and federal employee staffing levels.

OCIO Management of Program Funds Is Not Transparent

            DHS MD 0007.1 requires component CIOs to effectively manage
            and administer all component IT resources and assets. However,
            OCIO has not been able to provide component offices with
            detailed accounting of how their funds are being spent.

            OCIO receives funds from ICE component offices for the IT
            services OCIO provides to them. ICE component offices enter into
            two types of IT service agreements with the OCIO—Service-Wide
            Agreements and Service-Level Agreements (SLAs). Service-Wide
            Agreements are primarily focused on common IT operations and
            maintenance services used across all ICE programs. For example,
            the OCIO provides ICE component offices with IT support for
            telecommunications, financial systems, and operations and
            maintenance of program systems and applications. ICE
            component offices use SLAs to obtain specific IT services to meet
            their unique IT needs. For example, the OCIO has an SLA with
            one component office to deliver IT equipment and contract
            services for infrastructure engineering assistance and other
            contractor support. Approximately 52% of the OCIO’s FY 2009
            funding was derived from these two types of service agreements,
            as figure 10 shows.




         Immigration and Customs Enforcement Information Technology 

               Management Progresses But Challenges Remain 


                                   Page 20
                         29.1%
                         Base Budget




        52.4%
          ICE Service       18.5%
          Agreements         Other *




   Figure 10: Total FY 2009 OCIO Funding by Fund Source
   *Other includes appropriations received for, among other things, Automation
   Modernization and Recovery Act projects, as well as user fees received from
   external sources.


   The ICE component office officials said that there was little
   transparency in how the OCIO spent their program funds. They
   said that they do not receive adequate reports from the OCIO on
   how service agreement funds are managed and spent, despite their
   requests for more information. Instead, the OCIO provides a
   statement that includes only the total dollar amount that the office
   provided to the OCIO and the total dollar amount spent. In
   addition, ICE officials said that the costs for IT service agreements
   often increase during the year, with little justification or details on
   how funds were spent. Further, the OCIO does not provide
   detailed spending reports for ongoing IT programs that it is
   managing. For example, one office received no details when the
   OCIO spent a multiyear budget for one of its IT programs in one
   year, and the cost of the program increased from $20 million to
   $50 million. Although the component office requested that the
   OCIO provide justification for the increase, the information was
   not provided.

   OCIO officials said that they cannot easily provide component
   offices with detailed reporting on how service agreement funds are
   spent. The OCIO Budget Execution Branch uses the Federal
   Financial Management System to manage agency financial
   transactions. The branch can obtain some information, such as the
   amount of spending and the available balance on SLAs, from the
   system because SLAs are assigned individual project and other
   accounting codes. However, for more detailed information, such
   as which activities have been completed and the amount spent on
   each, the budget branch must obtain the information manually. It

Immigration and Customs Enforcement Information Technology 

      Management Progresses But Challenges Remain 


                          Page 21
             issues a data call once a month to OCIO project managers to obtain
             that information. In addition, tracking spending for Service-Wide
             Agreements is difficult because the funds received from all ICE
             component offices, which pay different amounts based on service
             utilization estimates, are combined into one “basket” and are not
             tracked by program.

             Without more robust tracking and reporting capability, the OCIO is
             challenged to provide details on how ICE program funds are being
             spent. As a result, ICE component office officials do not believe
             they are receiving sufficient financial reporting from the OCIO.
             This fosters a lack of confidence that the OCIO is effectively
             managing the funds ICE component offices provide for IT services
             and initiatives.

IT Policies Are Needed to Support IT Management Functions

             The Clinger-Cohen Act requires the ICE CIO to promote effective
             and efficient management and operations, as well as facilitate
             improvements to agency processes in regard to IT resources.
             Additionally, DHS MD 0007.1 requires that the ICE CIO ensure
             alignment with DHS policies and procedures. IT policies are
             instrumental in ensuring that ICE IT system development and IT
             operations are executed in accordance with department and agency
             guidelines.

             ICE has not yet published the IT policies needed to support and
             manage agency-wide IT. As of November 2009, fewer than one-
             third of the IT policies or directives recommended for development
             had been completed. Specifically, 16 IT policies or directives
             were in development—under review, pending signature, or on hold
             due to other circumstances. These policies address issues such as
             the IT procurement review, life cycle management, ITSR, and IT
             security. Additionally, three directives had been completed but not
             yet implemented while awaiting labor relations negotiations. A
             number of additional IT policies have been recommended for
             development but not yet begun. As a result, important guidance on
             agency-wide IT practices, such as IT security for remote access,
             has not yet been implemented.

             OCIO officials said that a formal policy management framework
             has not yet been instituted within ICE. The existing review
             process for policy approval is lengthy, requiring that all draft
             policies be reviewed by multiple ICE stakeholders. Some policies
             have been in development for as long as three years because of this
         Immigration and Customs Enforcement Information Technology 

               Management Progresses But Challenges Remain 


                                   Page 22
    lengthy process. The OCIO has assigned a priority indicator to
    certain policies and directives that it considers the most critical.
    For example, an ITSR policy with an “A” level priority is the
    highest priority.

   In the absence of completed and published IT policies, a number of
   critical IT management practices do not have formal support. For
   example, no policy gives PEO the authority to enforce compliance
   with the new standards and guidelines it is developing to improve
   IT management practices. Without enforcement authority, PEO
   can only encourage offices to use the tools it has developed for IT
   programs and projects. Because offices have the option of
   bypassing these tools, they run the risk of delays and problems that
   PEO’s tools might have identified. In addition, OCIO’s
   Information Assurance Division had to publish handbooks without
   official, signed policies in place because the information was
   needed quickly. Further, the directive requiring that all systems
   align with the ICE life cycle management process has not been
   finalized. As a result, the OCIO Architecture Division may be
   unable to enforce alignment, thus leaving the possibility for
   potential conflicts and misalignment with DHS guidance.




Immigration and Customs Enforcement Information Technology 

      Management Progresses But Challenges Remain 


                          Page 23
Recommendations

          We are recommending that the ICE Assistant Secretary:

          1.	 Finalize an agency-wide IT Strategic Plan to establish and
              communicate IT strategic goals and objectives to stakeholders.
          2.	 Establish an agency-wide IT budget process to include all ICE
              component office technology initiatives and requirements.
          3.	 Develop an OCIO staffing plan that includes specific actions
              and milestones for recruiting and retaining fulltime employees.
          4.	 Establish a formal process to facilitate IT policy development,
              approval, and dissemination.




Management Comments and OIG Analysis

          We obtained written comments on a draft of this report from the
          Acting Deputy Chief Financial Officer, ICE. In the comments, the
          Acting Deputy Chief Financial Officer concurred with our
          recommendations. We have included a copy of the comments in
          their entirety at Appendix B.

          In response to recommendation 1, the Acting Deputy Chief
          Financial Officer stated that ICE has completed the ICE IT
          Strategic Plan as of April 9, 2010. Further, a revision of the plan is
          currently being developed to ensure alignment to DHS and ICE
          policy. The Acting Deputy Chief Financial Officer requested that
          Recommendation 1 remain open until the plan is completed in
          March 2011.

          We recognize the progress made in this area since our review. We
          expect that ICE’s IT Strategic Plan will help to ensure that IT
          initiatives fully support DHS and ICE strategic goals and
          objectives. We look forward to receiving a documented IT
          Strategic Plan.

          In response to recommendation 2, the Acting Deputy Chief
          Financial Officer stated that the ICE OCIO is working with
          stakeholders to develop an IT budget process to include component
          input. The Acting Deputy Chief Financial Officer requested that
       Immigration and Customs Enforcement Information Technology 

             Management Progresses But Challenges Remain 


                                 Page 24
   Recommendation 2 remain open until the Procurement Review
   Directive is approved in March 2011. We are encouraged by these
   plans and look forward to receiving the documented Procurement
   Review Directive.

   In response to recommendation 3, the Acting Deputy Chief
   Financial Officer stated that the ICE OCIO is working to develop a
   staffing plan to address recruitment and retaining of full-time
   federal employees. The Acting Deputy Chief Financial Officer
   requested that recommendation 3 remain open until the staffing
   plan is finalized in December 2010. We are encouraged by this
   effort and look forward to receiving a documented staffing plan
   with specific actions and milestones for recruiting and retaining
   fulltime employees.

   In response to recommendation 4, the Acting Deputy Chief
   Financial Officer stated that the ICE OCIO is in the process of
   developing a directive to enable tracking of policy requirements
   and status. The Acting Deputy Chief Financial Officer requested
   that recommendation 4 remain open until the policy directive is
   completed in December 2010. We are encouraged by this effort
   and look forward to receiving a documented directive which
   outlines how policy development will be managed.




Immigration and Customs Enforcement Information Technology 

      Management Progresses But Challenges Remain 


                          Page 25
Appendix A
Objective, Scope, and Methodology



                    As part of our ongoing responsibility to assess the efficiency,
                    effectiveness, and economy of departmental programs and
                    operations, we conducted a review of ICE to determine whether
                    ICE’s IT management approach adequately addresses strategic
                    planning, implementation, and management of technology to
                    support its goals.

                    To establish criteria for this audit, we researched and reviewed
                    federal laws and executive guidance related to IT management and
                    CIO governance. We conducted research to obtain testimony,
                    published reports, documents, and news articles regarding the DHS
                    CIO operations and IT management throughout the department.
                    Additionally, we reviewed recent GAO and DHS OIG reports to
                    identify prior findings and recommendations. Using this
                    information, we established a data collection approach that
                    consisted of focused interviews and documentation analysis to
                    accomplish our audit objectives. We then developed a series of
                    questions and discussion topics to facilitate our interviews.

                    Subsequently, we held interviews at ICE headquarters and
                    conducted teleconferences with ICE officials at field offices
                    throughout the United States. Collectively, we interviewed more
                    than 60 ICE headquarters and field management officials to learn
                    about ICE’s processes and IT management functions. At
                    headquarters, we met with ICE OCIO officials, including the
                    Deputy CIO, division directors, branch directors, and project
                    managers, to discuss their roles and responsibilities related to ICE
                    IT management and IT infrastructure modernization. We held
                    teleconferences with ICE IT field operations area managers and IT
                    specialists to understand IT management in the field. We
                    discussed the current IT infrastructure and modernization efforts,
                    local IT development practices, and user involvement and
                    communication with headquarters. We collected supporting
                    documents about ICE’s IT structure, IT management functions,
                    current initiatives, and future plans.

                    We conducted audit fieldwork from September to November 2009
                    at ICE headquarters in Washington, DC. We performed our work
                    according to generally accepted government auditing standards.
                    Those standards require that we plan and perform the audit to
                    obtain sufficient appropriate evidence to provide a reasonable basis
                    for our findings and conclusions based on our audit objectives. We


                 Immigration and Customs Enforcement Information Technology 

                       Management Progresses But Challenges Remain 


                                           Page 26
Appendix A
Objective, Scope, and Methodology


                    believe that the evidence obtained provides a reasonable basis for
                    our findings and conclusions, based on our audit objectives.

                    The principal OIG points of contact for this audit are Frank Deffer,
                    Assistant Inspector General for Information Technology Audits,
                    and Richard Harsche, Director of Information Management. Major
                    OIG contributors to the audit are identified in Appendix C.




                 Immigration and Customs Enforcement Information Technology 

                       Management Progresses But Challenges Remain 


                                           Page 27
Appendix B
Management Response to Draft Report




                                                                        u.s. 0<,.01...... of 1I_I. .d   ~.riIy
                                                                        ~l2"Stm:t.SW
                                                                        W""'iftgIon. Be 20536


                                                                  U.S. Immigration
                                                             "Po" 'i:
                                                         _        and Customs
                                                               .~ Enforcement

                                               May 5, 2010

      TO;                          Frank DeITer
                                   Assistant Inspector General for Information Tcchnology


      FROM:
                                ~7J3-~
                                 Martin N. Finkelstein
                                   Deputy Chief Financial Officer (Acting)
                                   U.S. Immigration and Customs Enforcement

      SUBJECT:                     Comments to DIG Draft Report "Immigration and Customs
                                   Enforcement Infonnation Technology (I1) Management
                                   Progresses but Challenges Remain"

      U.S. Immigration and Customs Enforcement (ICE) appre<:iates the opportunity to comment on
      the draft report. In rcsponse to DIG's re<:ommendations for action by ICE;

      Recommendation I: "Finalize an agency-wide IT Strategic Plan to establish and communicate
      IT strategic goals and objcctives to stakeholders."

      ICE Response: ICE Concurs. ICE Office of the Chieflnfonnation Officer (CIO) completed the
      ICE IT Strategic Plan on April 9, 2010. A revised ICE IT Strategic Plan is currently under
      development to ensure alignment with DHS and ICE policy,

      ICE requests that this recommendation be considered resolved and open pending completion of
      the rcvised ICE IT Strategic Plan. The estimated complction datc is March 11,2011.

      Recommendalion 2: "Establish an agency-wide IT budget process to include all ICE component
      office technology initiatives and requirements."

      ICE Response: ICE concurs. ICE OCID will work in coordination with other ICE stakeholders
      leustomers to devclop a procedure that addresses the IT budget review process, to include
      component initialed inputs.

       ICE requeslS that this recommendation be considered resolved and open pending final review
      and approval of the Procurement Review Directive. The estimated completion date is Mareh I I,
      201\.

      Recommendation 3: "Develop an OCIO staffing plan that includes specific actions and
      mileslones for recruiting and retaining fulhime employees."




                                                                        www.ke.gov




                     Immigration and Customs Enforcement Information Technology 

                           Management Progresses But Challenges Remain 


                                                   Page 28
Appendix B
Management Response to Draft Report




     ICE Response: ICE concurs. ICE OCIO is working to develop an appropriate staffing plan thai
     will address the recruitment and retaining of its full-time federal employees.

     ICE requests thai this recommendation be considered resolved and opcn until the OCIO staffing
     plan has been finalized. The estimated completion date is December 31, 20 I O.

     Recommendation 4: "Establish a fonnal process to facilitate IT policy development, approval,
     and dissemination."

     ICE Response: ICE concurs. ICE OCIO is in the process of developing a directive that would
     enable tracking of policy requirements and the status of policy actions.

     ICE requests that this recommendation be considered resolved and opcn until the OCIO IT
     policy process can be finalized. The estimated completion date is Dc<:ember 31, 2010.

     Should you have any questions, please feel free to conlact Michael May, OIG Portfolio Manager,
     at (202) 732-6263.




                    Immigration and Customs Enforcement Information Technology 

                          Management Progresses But Challenges Remain 


                                                 Page 29
Appendix C
Major Contributors to the Report



                     Information Management Division

                     Richard Harsche, Division Director
                     Kristen Evans, Audit Manager
                     Swati Nijhawan, Auditor
                     Melissa Keaster, Auditor
                     Erin Dunham, Auditor
                     Anna Tyler, Auditor
                     Karen Nelson, Referencer




                  Immigration and Customs Enforcement Information Technology 

                        Management Progresses But Challenges Remain 


                                            Page 30
Appendix D
Report Distribution




                         Department of Homeland Security

                         Secretary
                         Deputy Secretary
                         Chief of Staff for Policy
                         Chief of Staff for Operations
                         Executive Secretary
                         General Counsel
                         DHS Chief Information Officer
                         DHS Chief Information Security Officer
                         ICE Assistant Secretary
                         ICE Chief Information Officer
                         ICE Audit Liaison
                         Director, GAO/OIG Liaison Office
                         Assistant Secretary for Office of Policy
                         Assistant Secretary for Office of Public Affairs
                         Assistant Secretary for Office of Legislative Affairs
                         DHS Chief Privacy Officer

                         Office of Management and Budget

                         Chief, Homeland Security Branch
                         DHS OIG Budget Examiner

                         Congress

                         Appropriate Congressional Oversight and Appropriations
                         Committees




                      Immigration and Customs Enforcement Information Technology 

                            Management Progresses But Challenges Remain 


                                                Page 31
ADDITIONAL INFORMATION AND COPIES

To obtain additional copies of this report, please call the Office of Inspector General (OIG) at (202) 254-4100,
fax your request to (202) 254-4305, or visit the OIG web site at www.dhs.gov/oig.


OIG HOTLINE

To report alleged fraud, waste, abuse or mismanagement, or any other kind of criminal or noncriminal
misconduct relative to department programs or operations:

• Call our Hotline at 1-800-323-8603;

• Fax the complaint directly to us at (202) 254-4292;

• Email us at DHSOIGHOTLINE@dhs.gov; or

• Write to us at:
       DHS Office of Inspector General/MAIL STOP 2600,
       Attention: Office of Investigations - Hotline,
       245 Murray Drive, SW, Building 410,
       Washington, DC 20528.


The OIG seeks to protect the identity of each writer and caller.
